             Review of Compliance with the Prompt Payment Act
                       Report No. 05-06, June 15, 2005

                                 INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review of
compliance with the Prompt Payment Act at the Railroad Retirement Board (RRB).

Background

The RRB is an independent agency in the executive branch of the Federal
government that administers the health and welfare provisions of the Railroad
Retirement Act (RRA), funded primarily by payroll taxes and transfers from the
trust funds of the Social Security system. During fiscal year (FY) 2004, the
Railroad Retirement program paid over $20 million in administrative expenses,
excluding salary and benefits paid to its employees.

In general, the Prompt Payment Act requires that interest be paid when payments
to a commercial vendor are issued after the payment due date. Under the Act,
payment is due 30 days after a proper invoice is received or goods/services are
accepted. Interest on late payments should be calculated from the day after the
payment due date through the payment date at the interest rate in effect on the
day after the payment due date.

The Prompt Payment Act also imposes restrictions on the early payment of vendor
invoices without management approval. A payment is considered early if it is
issued more than seven days prior to the payment due date. Payments under
$2,500 and payments to certain vendors are exempt from these restrictions.

The Bureau of Fiscal Operations (BFO) is responsible for processing invoices for
payment. The Federal Financial System (FFS), the mainframe application that
supports general ledger accounting, includes an integrated purchasing subsystem
that supports procurement of goods and services from requisition to payment.
After an invoice has been approved for payment, a payment voucher is entered
into FFS. FFS uses milestone dates to make timeliness determinations, identify
payments on which interest may be payable and compute the amount of interest
due. The key FFS milestone dates are “Invoice Date,” “Log Date” (or Invoice
Receipt Date), “Acceptance Date,” “Payment Voucher Date”, “Schedule Date,” and
“Check Date.”

Regulations governing Prompt Payment Act compliance also require agencies to
perform annual quality assurance reviews to assess their performance. The
RRB’s annual compliance assessment is performed by BFO’s Financial
Compliance Officer.




                                         1

This review was undertaken to support the OIG’s audit of the RRB’s FY 2005
financial statements, which is required by the Accountability of Tax Dollars Act of
2002. The Office of Management and Budget’s Bulletin 01-02, Audit
Requirements for Federal Financial Statements, requires that certain provisions of
the Prompt Payment Act be tested as part of every audit of a Federal agency’s
financial statements.

Objective

The objective of this audit was to assess the RRB’s compliance with the Prompt
Payment Act.

Scope

The scope of this audit was payments to vendors and contractors made during the
first quarter of FY 2005. We expanded the scope of our evaluation to include the
27 month period October 2002 through December 2004 in order to more fully
estimate the impact of control weaknesses.

Methodology

To accomplish our objective, we:

   1. identified management and system controls over Prompt Payment Act
      compliance;
   2. 	 used statistical and non-statistical sampling methods to assess the
        effectiveness of controls and evaluate the accuracy of transaction
        processing;
   3. interviewed responsible staff and management; and
   4. 	 evaluated the effectiveness of the agency’s Prompt Payment Act quality
        assurance process.

We considered the results of the control assessments and transaction tests,
supplemented by data analysis, in forming our overall assessment concerning
compliance. The details of our sampling methodologies are presented in
appendices I and II to this report.

Our work was performed in accordance with generally accepted government
auditing standards as applicable to the objective. We performed audit fieldwork at
RRB headquarters in Chicago, Illinois during January through April 2005.




                                         2

                                    RESULTS OF REVIEW



The RRB has not fully complied with the Prompt Payment Act. The systems and
procedures that the agency uses to implement the Act have not been effective in
ensuring that interest is paid to vendors in accordance with the requirements. The
RRB does not identify all invoices on which interest should be paid and does not pay
the correct amount of interest when a late payment is recognized. In addition,
controls are not adequate to ensure that required restrictions on early payment have
been properly implemented.

Many of the problems identified by our audit had been reported repeatedly in the
agency’s internal assessments of Prompt Payment Act compliance; however, that
process was not adequate to disclose the overall impact of errors or effect changes in
agency performance.


Changes Are Needed to Ensure Compliance with Late Payment Provisions

The RRB does not pay interest in full compliance with the Prompt Payment Act
because its policies, procedures and controls do not ensure that the agency identifies
all invoices on which interest should be paid or that it pays the correct amount of
interest.

As a result of weaknesses in system and management controls, the RRB did not
identify all late payments or pay all interest due under the Prompt Payment Act. The
RRB paid $4,033 in interest on 290 late payments between October 2002 and
December 2004 (27 months). We estimate that the RRB should have paid an
additional $5,000 to $10,000 in interest on approximately 150 invoices during the
same period.1

The Prompt Payment Act requires Federal agencies to pay interest to vendors whose
invoices are paid after the payment due date.2 Interest on late payments should be
calculated from the day after the payment due date through the payment date at the
interest rate in effect on the day after the payment due date.

Our review of a statistical sample of 45 items disclosed that 17 (38%) had been
processed using unsupported or incorrect dates, resulting in seven (16%) cases in
which the agency underpaid interest or incorrectly determined that no interest was
due. The 17 items questioned by the audit exceeded the sample acceptance
threshold; accordingly, we cannot conclude that compliance controls are adequate.


1
  This estimate is based on an analysis of FFS data for the stated period. This estimate includes

payments that incorrectly omitted interest or included too little interest. 

2
  In general, the payment due date is 30 days after the date a proper invoice is received or 

goods/services are accepted. 



                                                   3

Our review of non-statistical samples of payments to the three vendors submitting a
high volume of invoices disclosed similar problems.

Manually Input Milestone Dates Are Frequently Inaccurate

Log and Acceptance dates are manually entered into FFS. Our tests of transactions
disclosed that many vendor invoices are processed using incorrect log and
acceptance dates.

We questioned 14 of the 45 items in our statistical sample because the log date
and/or acceptance date used to process the payment was not supported by the
payment voucher. In some cases, the date used was inconsistent with the
documented timing of events. For example, we observed invoices processed with
log dates after the date that an agency employee had reviewed and initialed the
invoice.

The use of inaccurate log and acceptance dates results in incorrect determinations of
timeliness and the underpayment of interest.

FFS Not Properly Configured for Prompt Payment Act Processing

Under the Prompt Payment Act, identification of late payments and the related
interest calculation should be based on the date a check is issued or an electronic
funds transfer is completed. FFS incorrectly determines timeliness and computes
interest using the date that a payment voucher is entered into FFS because the RRB
has not properly configured the system for Prompt Payment Act processing. As a
result, FFS does not identify all late payments and underpays interest in all cases
where interest is due.

Interest Rates Are Not Correct

The Treasury Financial Management Service publishes the interest rates to be used
in computing interest under the Prompt Payment Act. The RRB did not update FFS
for the last two semi-annual changes in interest rate that were effective July 1, 2004,
and January 1, 2005 until the error was noted by the Financial Compliance Officer
and auditors respectively.

The use of out-of-date interest rates results in incorrect interest computations until
the current rate is applied.




                                            4

Recommendations

We recommend that BFO:

   1. 	 implement policies, procedures and controls to ensure that milestone dates
        manually entered into FFS are accurate and comply with the requirements of
        the Prompt Payment Act;
   2. 	 review FFS settings and make changes as necessary to ensure that timeliness
        determinations and interest calculations use the correct payment date;
   3. implement a control to ensure the timely update of interest rates; and
   4. 	 identify payments on which Prompt Payment Act interest was incorrectly
        omitted or underpaid and make adjustment accordingly.

Management’s Response

With respect to recommendation #1, BFO responded that Administrative Circular
BSS-14 sets forth the pertinent procedures and requirements. They plan to work with
the bureaus and offices to help to ensure that these procedures are fully
implemented.

BFO has taken or plans to take, action to implement recommendations #2 and #3.
They will consult with the agency’s Office of General Counsel on the appropriate way
to proceed with recommendation #4.

The full text of management’s response is included as Appendix III to this report.

OIG’s Comments on Management’s Response

We are aware that Administrative Circular BSS -14 addresses some Prompt Payment
Act issues; however, the type and number of errors disclosed by this audit indicates
that the agency needs to do more than ensure that BSS-14 is fully implemented.

      •	 BSS-14 does not offer guidance in correctly identifying Prompt Payment
         Act milestone dates.
      •	 BSS-14 does not address the specifics of the payment processing during
         which BFO personnel identify and input Prompt Payment Act milestone
         dates.
      •	 BSS-14 does provide for a lengthy review and approval process in which
         certain invoices are circulated throughout the agency so that user
         organizations can give manual approval prior to payment. The circular
         does not explain how to identify the correct Prompt Payment Act milestone
         dates from among the many receipt and approval dates captured during
         the review and approval process.




                                          5

Controls Over Early Payments Need To Be Strengthened

The RRB has not implemented adequate controls to limit the early payment of
invoices pursuant to the requirements of the Prompt Payment Act.

The Prompt Payment Act limits the circumstances in which a Federal agency may
pay vendor invoices early. A payment is early if it is issued more than seven days
prior to the last day on which payment could be made and still be considered timely
under the Act. This rule does not apply to payments under $2,500, to payments to
small businesses or if the agency determines that it would be in the best interest of
the government to make payment early.

Our review of a statistical sample of 45 items disclosed five that had been paid early
based on a comparison of the check date with the payment due date as computed by
FFS.3 The supporting documentation for these payments did not show evidence of
authorization to pay early or the reason for that decision. The number of items
questioned by the audit exceeds the sample acceptance threshold; accordingly, we
cannot conclude that compliance controls are adequate.

FFS includes features that would restrict early payments in accordance with the
Prompt Payment Act by flagging them for additional approvals. The lack of
authorization observed in the exceptions noted above, leads us to question whether
the RRB has implemented FFS system controls designed to restrict early payment.
In addition, we noted that the agency’s quality assurance review process does not
include an assessment of compliance with Prompt Payment Act restrictions on early
payment.

We have identified instances of non-compliance with early payment restrictions and
see no evidence of management or system controls operating to restrict early
payments in accordance with the Act. As a result, management has not adequately
ensured that early payments have been limited to the conditions and circumstances
permitted by the Prompt Payment Act.

Recommendations

We recommend that BFO:

     5. 	 revise its policies and procedures to ensure proper determination and
          authorization of early payments; and
     6. 	 review FFS settings and make changes as necessary to implement system
          features designed to ensure compliance with restrictions on early payments.




3

  We did not question any items that were exempt from early payment restrictions based on amount
or vendor status.


                                                6

Management’s Response

With respect to recommendation #5, BFO refers the reader to their response to
recommendation #1 in which they cite existing procedures published in
Administrative Circular BSS-14 and state that they will work to ensure that these
procedures are fully implemented. They also state that “if a bureau requests early
payment, accounts payable will request written authorization before processing the
request.”

With respect to recommendation #6, BFO has requested that the Bureau of
Information Services reinstate an edit that calls for flagging payments scheduled for 8
or more days prior to the prompt pay date and requiring further authorization before
processing can be completed.

The full text of management’s response is included as Appendix III to this report.

OIG’s Comments on Management’s Response

We are aware that Administrative Circular BSS-14 addresses some Prompt Payment
Act issues; however, BSS-14 does not discuss the early payment provisions of the
Prompt Payment Act nor does it provide guidance to agency officials in determining
when it is appropriate to accelerate payment.


Agency Quality Assurance Process Needs Improvement

The RRB has not implemented an effective quality assurance process for Prompt
Payment Act compliance. In accordance with the implementing regulations, the RRB
performs an annual quality assurance review of payments subject to the Act. That
process is not effective because the review process:

   	 is not designed to disclose incorrect timeliness determinations because it
      excludes invoices on which no interest was paid;
      does not assess compliance with restrictions on early payments; and
   	 does not include follow-up to ensure that the weaknesses identified are
      properly addressed.

Our review of agency quality assurance reports for FYs 2002, 2003 and 2004
disclosed that the agency’s Financial Compliance Officer had observed the same
deficiencies in milestone dates and the computation of interest that we identified
during our audit. However, the internal evaluation did not disclose the impact of
those deficiencies on agency compliance because it included only those payments
on which interest had been paid.




                                          7

As a result of weaknesses in the quality assurance process, the study incorrectly
concluded that the RRB was in full compliance with the Prompt Payment Act. In
addition, the lack of follow-up to ensure implementation of recommendations allowed
the deficiencies to persist.

Recommendations

We recommend that BFO review and revise its Prompt Payment Act quality
assurance process to:

   7. 	 require samples be drawn from the universe of all payments subject to the
        Prompt Payment Act during the period under review; and
   8. 	 include a follow-up process to ensure that compliance issues are fully
        addressed and corrective action taken as necessary.

Management’s Response

BFO has agreed to implement the recommendations. The full text of management’s
response is included as Appendix III to this report.


Data Integrity Could Be Improved

FFS reports incorrect milestone dates for certain vendors of medical examinations
and consultative opinions. Data needs to be accurate in order to be meaningful.

Orders for medical examinations from vendors QTC Medical and Consultative
Examinations, Inc. are processed through an automated system that interfaces with
FFS. The interface captures receipt and acceptance dates for examinations but
passes only the acceptance date to FFS. FFS uses the acceptance date to fill the
“Invoice Date,” “Log Date,” and “Acceptance Date” fields. The use of a single date to
fill all these fields diminishes the value of data recorded for these vendors.

Recommendation

We recommend that BFO:

   9. 	 review the operational settings of the interface that passes report acceptance
        data to FFS to determine whether more accurate information can be used to
        fill FFS table entry for medical vendors.

Management’s Response

BFO has agreed to implement the recommendation. The full text of management’s
response is included as Appendix III to this report.



                                          8

                                                                                  Appendix I
                    SAMPLING METHODOLOGY AND RESULTS
                             Statistical Sampling

We used statistical sampling to assess the effectiveness of controls over
compliance with the Prompt Payment Act in the general vendor population.

Audit Objective

The objective of our tests was to assess the adequacy of internal control by
testing the results of processing to determine whether:

       decisions were supported by adequate documentation; 

       dates used in making Prompt Payment Act determinations were accurate; 

       the results of FFS system processing were accurate;

       interest was paid on late payments; and

       early payments had been authorized and met the requirements of the Act. 


Scope

We selected the sample from the population of 869 entries in the FFS payment
voucher line table with voucher dates during the first quarter of FY 2005. This
population excluded payments to three vendors with a high volume of small
payments.4

Review Methodology

We used statistical acceptance sampling using a 90% confidence level and 5%
tolerable error which directed a 45 case sample. The threshold for acceptance
was zero errors. Zero errors would permit the auditors to infer with 90%
confidence that controls had been operating effectively in at least 95% of
processing activity.

Sample Review

For each item in the sample, we:

    	 obtained and reviewed the paper invoices retained as support for the FFS
       electronic payment vouchers;
       compared the dates on the payment voucher to milestone dates in FFS;
       made an independent determination of payment timeliness;
       computed interest on those payments identified as late by the audit; and
       looked for evidence of authorization for early payments.


4
  We tested payments to these three vendors separately. The results of our tests of payment to
these vendors, which represent nearly 79% of all payment voucher lines, are presented in
Appendix II.


                                               9

                                                                     Appendix I
                SAMPLING METHODOLOGY AND RESULTS
                         Statistical Sampling

Results of Review

Our evaluation of 45 randomly selected accounts receivable identified 17 items
with exceptions as shown below.

       A log and/or acceptance date was not entered into FFS.           3

       A milestone date was not supported by agency
       documentation or was inconsistent with the actual timing of    14
       events.

       A late payment was not identified during FFS payment
                                                                        6
       processing.

       Interest was due on a late payment, but:
            no interest was paid, or                                   5
            interest was underpaid.                                    2

       A decision to accelerate payment was not documented.             5

Note that some sample items were cited for more than one type of exception.

Audit Conclusion

We identified exceptions exceeding the sample acceptance threshold in all
evaluation categories. As a result, we cannot conclude that controls are
adequate to ensure compliance with the Prompt Payment Act.

Because of the large number of exceptions, and the systemic nature of the
weaknesses underlying the inaccuracies and delays, we did not expand testing
to determine whether a larger sample would yield a different result.




                                       10

                                                                     Appendix II
                  SAMPLING METHODOLOGY AND RESULTS
                         Non-Statistical Sampling

We used non-statistical sampling to assess the effectiveness of controls over
compliance with the Prompt Payment Act with respect to three vendors
submitting a high volume of invoices. We also used non-statistical methods to
determine whether certain claims for payment not subject to the Prompt Payment
Act had been handled properly.

Audit Objective

The objective of our non-statistical sampling tests was to determine whether:

   	 payment to the three major vendors that comprise nearly 79% of all
      payment voucher lines had been processed in the same manner as the
      invoices of other vendors with respect to documentation, payment of
      interest and accelerated payment approval;

   	 payments not controlled through FFS included any vendors subject to the
      Prompt Payment Act and, if so, whether they had been processed in
      compliance with the Act; and

   	 payments to employees, which are not subject to the Prompt Payment
      Act, had been processed in compliance with applicable regulations
      governing timeliness.

Scope

We selected the samples for review from the population of entries in the FFS
payment voucher line table with voucher dates during the first quarter of FY
2005.

Review Methodology

We used judgment sampling to select payments for review and evaluated each
item in the same manner as for the statistical sample (see Appendix I).

Results of Review

Our non-statistical sampling tests of payment processing for the three vendors
submitting a high volume of invoices disclosed the same weaknesses that were
identified during statistical sampling of payments to other vendors. Most
exceptions were related to cases where milestone dates were not supported by
the documentation.




                                       11

                                                                        Appendix II
                    SAMPLING METHODOLOGY AND RESULTS
                           Non-Statistical Sampling

                                                                 Cases
                                                       Sample    with an
                                            Universe    Size    Exception
     Federal Express                          252        22        10
     QTC Medical

     A provider of consultative medical      1,600       12        4
     opinions to the RRB’s disability
     program

     Consultative Examinations, Inc.

     A provider of consultative medical      1,330       12        0
     examinations to the RRB’s disability
     program.



We also observed that the FFS payment voucher record fields for invoice, log
and acceptance dates are all filled with the date operations personnel had
accepted the medical vendors’ report.

Our tests of payments not controlled by FFS and claims for payment not subject
to the Prompt Payment Act did not disclose any reportable instances of non-
compliance.

Audit Conclusion

The results of our non-statistical sampling tests are generally consistent with the
results of the statistical sampling tests reported in Appendix I.




                                             12

     Appendix III




13
14
15
